     Department of Homeland Security

     ��������������������������



  Management Directorate’s Management Letter for 

     FY 2013 DHS Financial Statements Audit





OIG-14-73                                 April 2014
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      APR 21 2014

MEMORANDUM FOR:               Stacy Marcott
                              Deputy Chief Financial Officer
                              Management Directorate

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT:                      Management Directorate’s Management Letter for
                              FY 2013 DHS Financial Statements Audit

Attached for your information is our final report, Management Directorate’s
Management Letter for FY 2013 DHS Financial Statements Audit. This report contains
one comment and one recommendation related to an internal control deficiency that
was not required to be reported in the Independent Auditors’ Report on DHS’ FY 2013
Financial Statements and Internal Control over Financial Reporting. Internal control
deficiencies which are considered significant deficiencies were reported, as required, in
the Independent Auditors’ Report, dated December 11, 2013, which was included in the
Department of Homeland Security (DHS) fiscal year (FY) 2013 Agency Financial Report.
We do not require management’s response to the recommendation.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment






                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, Management Directorate
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards generally
accepted in the United States of America and Government Auditing Standards, we considered internal
control over financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements. In conjunction with our audit of the
financial statements, we also performed an audit of internal control over financial reporting in accordance
with attestation standards established by the American Institute of Certified Public Accountants.
The Management Directorate (MGT) is a component of DHS. During our audit, we noted certain matters
involving internal control and other operational matters, related to MGT, that are presented for your
consideration. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control or result in other operating
efficiencies. These matters are summarized in the Table of Financial Management Comments on the
following pages. The disposition of each internal control deficiency identified during our FY 2013 audit –
as either reported in our Independent Auditors’ Report, or herein – is presented in Appendix A. Our
findings related to information technology systems have been presented in a separate letter to the DHS
Office of Inspector General, the MGT Chief Information Officer, and Chief Financial Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to light all
weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge of MGT’s
organization gained during our work to make comments and suggestions that we hope will be useful to
you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any other
purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                       Management Directorate
                              Table of Financial Management Comments

                                          September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference   Subject                                                                      Page

FMC 13-01   Government Accountability Office Checklist                                    2


                                            APPENDIX

Appendix    Subject                                                                      Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and    3
            Recommendation (NFRs)




                                                    1

                                      Management Directorate
                                  Financial Management Comments

                                        September 30, 2013




FMC 13-01 – Government Accountability Office Checklist (Notice of Finding and Recommendation
No. Management Directorate (MGT) 13-07)

       Controls were not operating effectively to ensure the responses to the Government Accountability
       Office (GAO) 2010 Checklist were appropriate based on MGT’s operations and financial
       reporting. Specifically, we noted the following:
       •	 MGT responded "Y" to a question regarding the use of the Consumption Method for
           operating materials and supplies (OM&S); however, MGT used the Purchase Method for
           accounting for OM&S.
       •	 MGT did have unearned revenue recorded as a liability for advances and prepayments. As
           such, the response of "N/A" was not appropriate.
       •	 MGT did have non-exchange revenue recognized on the Statement of Net Position and as
           such the response of "N/A" was not appropriate.

       Recommendation:
       We recommend that MGT ensure reviews of the GAO 2010 Checklist are performed completely
       and effectively to identify errors.




                                                  2

                                                                                                               Appendix A
                                          Management Directorate
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                    Disposition1
                                                                                                   IAR                FMC
              NFR
Component                Description                                                     MW         SD        NC       No.
              No.
MGT           13-01      Time and Attendance                                              A
MGT           13-02      Advances and Prepayments                                        A, D
MGT           13-03      Undelivered Order Analysis                                       D
MGT           13-04      Financial Reporting                                              A
                         Funds Management and Untimely Recording of Obligation
MGT           13-05                                                                       D
                         Activity to the General Ledger
                         Federal Financial Management System to Prism
MGT           13-06                                                                       D
                         Reconciliation
MGT           13-07      Government Accountability Office Checklist                                                   13-01
                         Inadequate Controls over the Accounting of St. Elizabeths
MGT           13-08                                                                       A
                         Lease and Related Leasehold Improvements
MGT           13-09      Invoice Receipt                                                  D
MGT           13-10      Suspense Reconciliation                                          A
                         Reconciliation of MGT Undelivered Orders and Unfilled
MGT           13-11                                                                       D
                         Customer Orders
MGT           13-12      Entity Level Controls                                                       E
MGT           13-13      Federal Financial Management Improvement Act of 1996                                  J

1
  Disposition Legend:
IAR	        Independent Auditors’ Report dated December 11, 2013
FMC	        Financial Management Comment
MW	         Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	         Contributed to a Significant Deficiency at the Department level when combined with the results of all other
           components
NC	         Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
           combined with the results of all other components
NFR	        Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                              3

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Management Directorate

   Under Secretary
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-73
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
